<html>
<title> - THE PRESIDENT'S BUDGET REQUEST FOR THE U.S. FOREST SERVICE. FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-514]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-514

 THE PRESIDENT'S BUDGET REQUEST FOR THE U.S. FOREST SERVICE FOR FISCAL 
                               YEAR 2019

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 24, 2018

                               __________
                               
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        


                  U.S. GOVERNMENT PUBLISHING OFFICE                    
30-281                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ef9f80af8c9a9c9b878a839fc18c8082c1">[email&#160;protected]</a>                   
           
        
     
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Public Lands & Natural Resources 
                            Policy Director
                Annie Hoefler, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
                           
                           
                           C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                                WITNESS

Christiansen, Victoria, Interim Chief, USDA Forest Service.......    25

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria:
    Opening Statement............................................     3
    Letter to the Senate Committee on Appropriations, 
      Subcommittee on Interior, Environment, and Related Agencies 
      dated March 29, 2018.......................................     5
Christiansen, Victoria:
    Opening Statement............................................    25
    Written Testimony............................................    27
    Responses to Questions for the Record........................    57
Murkowski, Hon. Lisa:
    Opening Statement............................................     1

 
                     THE PRESIDENT'S BUDGET REQUEST
                      FOR THE U.S. FOREST SERVICE.
                          FOR FISCAL YEAR 2019

                              ----------                              


                        TUESDAY, APRIL 24, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are here this morning to consider the President's budget 
request for the U.S. Forest Service for FY'19.
    Before we begin, I would like to welcome the Interim Chief 
of the Forest Service, Vicki Christiansen, back to our 
Committee. You were here last fall when we were talking about 
the use of new technologies to mitigate wildfire risk, so it is 
good to have you back before us again.
    We are here to discuss the upcoming fiscal year, but I 
think that the best place to start is with a discussion of what 
we just did in the FY 2018 Omnibus. That bill included a deal 
on wildfire budgeting and forest management. It is no secret 
that I was not particularly thrilled with it.
    Along with many members of the House and Senate, I had 
supported both a budget fix for wildfire suppression and 
meaningful management reforms that would allow for more active 
forest management. I think that we fell far short of the 
management reforms I had hoped for and that I think are needed 
to reduce the threat of wildfires.
    There were some glimmers of progress, for example, on 
vegetation management, but until we do more on this front, we 
will fail to fully protect our forests and continue to burn 
through a lot of taxpayer dollars each fire season.
    On a more positive note, the new wildfire suppression 
budgeting framework should end the destructive practice of fire 
borrowing and stabilize the operations budget by treating 
wildfires more like natural disasters. We have heard this 
throughout this Committee for a long time, so I think it is 
important that we end that practice.
    This is important, because for years the Forest Service has 
argued that fire borrowing and the rising cost of wildfire 
operations have inhibited its ability to carry out its 
multiple-use mission. Whether increasing the timber harvest or 
processing permits for recreation access, everything has been 
linked to fire costs. Now that we have a fix, I expect the 
Forest Service to step up and address management priorities 
that have long been neglected.
    Throughout this year's budget request, the Forest Service 
acknowledges its multiple-use mission and primary 
responsibility for maintaining existing lands.
    So this morning I would like to lay out my budget 
priorities for Alaska. Ms. Christiansen, I travelled to 
Southeast Alaska with your predecessor earlier this year, we 
had a conversation about that, and we held a roundtable in 
Ketchikan. We heard from over 20 leaders who represented local 
governments, Alaska Natives, tourism, energy, timber and 
environmental groups, and the resounding theme that we heard 
over and over again is that more access is needed in the 
Tongass. Now in my mind that starts with restoring the roadless 
exemption on the Tongass. You have a state petition that asks 
you to do just that, and as I have said many times before, the 
Roadless Rule just does not make sense in the Tongass which is 
a forest made up of 32 island communities.
    On this same trip, we also heard about the problems with 
our recently amended land plan. Even those who support a rapid 
transition from harvesting old growth to young growth 
acknowledge that the plan, as written, is not going to result 
in a successful transition unless we make some changes.
    I think, and we have had this conversation, that there are 
some real errors in that plan. It was completed without a 
comprehensive inventory of young growth. I hope that you will 
implement the direction provided in the explanatory statement 
that accompanies the omnibus and seriously look at a plan 
amendment or revision.
    Now we have other issues in Alaska. Our nation's second 
largest national forest, the Chugach, the agency has 
effectively placed a moratorium on new permits for outfitters 
and guides for years now. One guide, he simply wanted to take 
his clients ice fishing but was told that permits were not 
being issued and to check back in seven years. That is just 
absolutely unacceptable. While the moratorium has now been 
lifted, which we appreciate, much of the Chugach is still 
closed off to outfitters and guides. We hear a lot of talk 
about keeping public lands accessible to the public, but 
sometimes in Alaska it is a very different experience from the 
public's perspective. We have to make sure that whether it is 
our heli-skiers, our cross-country skiers, our fishermen and 
women, that they have the access to the forest that is billed 
as a recreation forest.
    I will note that Secretary Zinke signed two secretarial 
orders just this last week on recreation, designed to push 
agencies to increase and expand access to recreation. Hopefully 
this will cause a sharper focus on what we need to be doing 
within our national forests.
    Of course, Alaska is not alone, and many who sit on this 
Committee face similar issues in their states.
    I think the Forest Service has an opportunity here. The 
agency has been given more funding, new tools and expanded 
authorities. We will be looking to build on those in 2019. But 
in the meantime, don't squander the goodwill. Get going to 
correct the management failures that have plagued the agency 
for years. End fire borrowing and revamp your budget process; 
ensure that our forests are productive again; move at the pace 
and a scale needed on our overstocked forests to reduce the 
risks of catastrophic fires; streamline the permitting so that 
the United States can produce minerals that are critical to our 
national security; provide access to our rural communities, so 
that they can build and sustain thriving economies; and then, 
of course, the one issue that I have not mentioned this 
morning, we discussed yesterday, but it is a significant one, 
you have another major job and that is the internal reforms to 
put an end to the sexual harassment and the assault that have 
plagued the Forest Service.
    I have been horrified, really horrified, to learn about 
what has been happening over the course of years and decades. 
It is categorically unacceptable, and I know that you share 
that view. Improving the culture and guaranteeing a safe 
workplace must be one of your highest priorities.
    Ms. Christiansen, I know that you are new to this position 
and that we are still waiting on an Under Secretary at the 
Department, but I do appreciate your commitment to work with 
me, work with us, to put the Forest Service back on the right 
path.
    Thank you for being here this morning. We will look forward 
to our exchange.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thank you for 
holding this important hearing.
    As you mentioned, the Omnibus, I think, represents a 
significant step forward but much more needs to be done, and I 
welcome Ms. Christiansen's input into many of these issues, 
including the one you just mentioned about sexual harassment. 
As a previous State Forester for the State of Washington, I 
know you know how seriously we take this issue at home, and 
hopefully you will help the agency make improvements here over 
the long run.
    As discussed, the Omnibus was a step forward, but today's 
discussion is about the President's budget proposal. I think 
the Chair did a good job of running through where we go from 
here.
    Getting the Wildfire Funding Fix enacted into law is 
something that I, Senator Wyden and several members on this 
side of the aisle, have fought diligently for, for many, many 
years. A tremendous amount of work (both inside and outside of 
our agencies) went into this, so our thanks to everybody that 
was involved. The Forest Service will no longer have to borrow 
funding from programs to get firefighters to the fire line.
    The Forest Service will no longer need to transfer money 
from land management accounts to pay for funding, and the 
Omnibus provided an additional $160 million through 2029 to 
back pay the programs that had been cut.
    It also reauthorized Secure Rural Schools for two more 
years, which I can't tell you how important that is to the 
rural communities of the Pacific Northwest. This will ensure 
communities are not left without the funding they need while we 
create permanent solutions.
    The package included language to make it easier for state 
agencies, like Washington DNR, to be a good partner with the 
Forest Service. It included an expansion of the Good Neighbor 
program and authority for utilities managing vegetation near 
power lines.
    Now, for the first time, the Forest Service can issue 
contracts for 20 years to do thinning in fire-prone areas, and 
there is a preference for cross-laminated timber in awarding 
those contracts. So rural communities in Washington stand to 
gain plenty from that new paradigm, hopefully treating fuels in 
our most challenging areas of central Washington and the 
Northeast corners of our state.
    All of this we did while still protecting good public lands 
and existing environmental laws. My message to the Forest 
Service and to many of you is that we need to continue to 
provide the resources that are requested because wildfire is 
going to continue to plague us. We have to get this right.
    In particular, we want to see wise spending given the large 
amounts of money that have just been given; we want to see 
significantly more restoration and fire preparedness; and, we 
enacted this law because we want to see fewer of our homes lost 
to wildfire. We want to make sure that our national forests 
become healthier.
    We know the weather is drier. We are seeing more fire 
starts, we are seeing more homes destroyed, and we want to make 
sure that you understand that now is not the time to cut 
research.
    To get ahead of the wildfire problem we need robust 
science. The Forest Service Fire lab in Seattle performs that 
kind of research. One of their highest profiled projects, the 
Fire and Smoke Model Evaluation experiment, would essentially 
combine all existing scientific models for fire behavior, 
weather, fuels, air quality, to make it easier and safer to do 
controlled burns.
    I think at one of our last hearings we had the drought map 
that showed where the nation is going to be most affected by 
drought. I am pretty sure in the next 30 days the Forest 
Service will produce the Fire Risk map for us which will also 
show us the most at-risk communities.
    Given the devastation of these fires, I think it is so 
important that we continue to have that science, if nothing 
more than for preparing for the season, but my guess is that it 
will also lead us to better strategies on how to fight fires. 
Hence, we need to make sure that we have better tools.
    The Fire Lab and this particular project was funded by the 
Joint Fire Science Program which is considered to be one of the 
best research programs in the Federal Government.
    I would like to submit for the record, Madam Chair, a 
letter that we received last week. I think people who signed 
this letter advocating for the program are county 
commissioners, fire chiefs, local sheriffs, prescribed fire 
councils, and I think every member of the Committee has a 
constituent who signed this letter.
    The Chairman. It will be included as part of the record.
    [The letter advocating for the Fire Lab follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Cantwell. We are talking about $7 million of the 
Forest Service's $3 billion budget to operate this innovation 
program. So I am asking that we do everything we can to help 
protect it, particularly during the wildfire season we are 
facing. We need science just as we need our assets.
    Some of those assets are airtankers and water scoopers. I 
would like to discuss the change in Forest Service policy as it 
relates to airtankers and water scoopers. The point of 
airtankers is to be able to catch wildfires before they grow 
into expensive incidents. I am concerned about a policy that 
would leave these airtankers unable to fly after they are 
ordered for up to 48 hours. With the number of fire starts, I 
understand the Forest Service trying to be economical, but how 
does it add up if those fire starts turn into more explosive 
fires?
    I don't know if I have the numbers right here, but the 
Carlton Complex fire destroyed over 100,000 acres in one 
afternoon, and that fire was accompanied by many other fire 
starts in the area. So basically all the resources ended up 
going into one particular part of the Okanagan while other 
parts of Pend Oreille County were on fire and could have 
certainly used some help and support.
    Under exclusive use contracts, an airtanker has to respond 
within 15 minutes. To me, that sounded like a good process. 
Under the call-when-needed contract, an airtanker would, under 
this change, have up to 48 hours to respond. In 48 hours a lot 
of damage can be done.
    Over the last week almost every airtanker company has 
raised concerns about this. I am told the Forest Service is 
trying to shift cost for aircraft to be paid for with the new 
pot of money created in the Omnibus. The policy shift, I 
believe, could be adding up to the taxpayers paying more 
dollars. I hope you will look at this and help clarify this 
during the questions today and after today's hearing.
    I look forward to working with you as the Committee 
continues to move forward on fire issues and to make sure that 
we have a level playing field.
    Again, thank you Madam Chair for this hearing and allowing 
us to ask important questions.
    The Chairman. Thank you, Senator Cantwell.
    Ms. Christiansen, we will now turn to you for whatever 
comments you would care to share with the Committee.
    As I mentioned, Vicki Christiansen is the Interim Chief for 
the U.S. Forest Service at the Department of Agriculture. She 
is accompanied by Mr. John Rapp who is the Budget Director at 
the U.S. Forest Service. Mr. Rapp, I don't know whether you 
plan on providing any testimony or just being here for backup 
to Ms. Christiansen?
    With that, Ms. Christiansen, you have the floor here. We 
would ask that you try to keep your comments to five minutes, 
and we will include your full statement as part of the record, 
but an opportunity for the questions back and forth, I think, 
is what we are here for. We appreciate that, and we appreciate 
your leadership here.

STATEMENT OF VICTORIA CHRISTIANSEN, INTERIM CHIEF, USDA FOREST 
                            SERVICE

    Ms. Christiansen. Madam Chair, members of the Committee, 
thank you for inviting me here to testify on USDA Forest 
Service's priorities and the request in the President's 2019 
budget.
    I look forward to working closely with each one of you in 
my new role as Interim Chief.
    Before I talk about the budget, I'll share just a bit about 
my background. I was named to this position six weeks ago. I 
came to the Forest Service in 2010 as Deputy Director of Fire 
and Aviation and went on to serve as the Deputy Chief for State 
and Private Forestry. For 30 years prior to these assignments, 
I helped deliver the mission of the Forest Service through my 
work in state government. I grew up in the Pacific Northwest, 
and I'm a forester by training. I started as a seasonal 
wildland firefighter in Washington State. I had several 
positions that emphasized managing state trust lands, wildland 
fire protection and landowner assistance with Washington 
Department of Natural Resources. I eventually served as State 
Forester, as Senator Cantwell mentioned, and then the State 
Forester of Arizona. My passion is to connect people with their 
natural resources, and the most productive way to do that is 
through partnerships and collaboration that are based on mutual 
trust. I will lead this agency in that same spirit.
    In regards to the budget and our priorities, I will touch 
on four topics: fire funding, the 2019 investments in America's 
forests, internal reforms, and improving our work environment.
    Thank you for solving the fire-funding problem that has 
disrupted our work for a decade. In 2020 this solution will 
allow us to stabilize our operating environment by interrupting 
the rising fire suppression budget by treating catastrophic 
wildfires as disasters. We can immediately begin to use the new 
tools and expanded authorities in the recent Omnibus to help us 
do more work to improve forest conditions and deliver products. 
This fix is a clear affirmation for us to put more dollars in 
boots on the ground, and we are committed to doing just that.
    The President's request for the Forest Service budget 
totals nearly $5.2 billion. Sixty-three percent of it is fire-
related as a result of the rising 10-year average.
    This budget does reflect hard choices and difficult 
tradeoffs. Our primary focus is to improve conditions on 
national forests. This funding will go toward preventative 
treatments and hazardous fuel removal on more than 3.4 million 
acres of national forest. This work will help boost local 
economies supporting over 350,000 jobs. We will be able to make 
greater progress using tools like the Good Neighbor Authority 
and the expansion of the 20-year stewardship contracts to do 
more work in a spirit of shared stewardship. We thank the 
Congress for investing in the nation's forests and grasslands. 
We will make good on that investment.
    We also do our part by reforming our internal processes. We 
will be more transparent, prudent and accountable for the 
taxpayers' dollars. We know we don't have a blank check.
    This is especially true for our response to wildfires. We 
will work to better contain fire costs, ensuring we make 
decisions that give us the best chance at success. We are also 
working to reform our overly complex, outdated processes that 
delay our work.
    Lastly, we are changing our culture to create a safe and 
respectful work environment so employees can effectively 
deliver our mission. Recently we have faced hard truths about 
allegations of workplace harassment and retaliation, and these 
are not acceptable.
    The Forest Service has been combating these problems for 
years, but the recent news reports made it painfully clear, 
policies prohibiting such behavior are not enough. We will 
match the urgency of this situation with focused actions and 
sustained energy. We know it won't happen overnight, but I have 
committed to our employees and to the American people that we 
will not rest until the USDA Forest Service is a safe and 
resilient workplace for everyone.
    Thank you for your support of America's forests. We will 
ensure these investments yield positive results.
    Thank you, Madam Chair.
    [The prepared statement of Ms. Christiansen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. Thank you, Ms. Christiansen. I appreciate not 
only your commitment to see true reforms as they relate to the 
workplace, and know that we will hold you accountable to that.
    I am going to want to know where you are with the progress 
following some benchmarks here. It is one thing to come before 
the Committee and say we are going to do this. We need to 
ensure that it is happening internally, that the men and women 
who work hard and serve our agency, that they feel safe and 
they feel that they are in an environment that, obviously, has 
respect for them and that men and women respect one another.
    So know this is something that doesn't factor in there in 
terms of these policy initiatives, Tongass or what you are 
going to do with airtankers, but that is something this 
Committee is going to be following up with you on a somewhat 
regular basis to know and understand where we are.
    I also appreciate your comments about accountability for 
the funding and the recognition that you have new authorities. 
You have new flexibility. You are getting what a lot of 
agencies would like to have which is a little more free reign 
here. That does not mean that it is not without accountability. 
It does not mean, you have used the words, it is not a blank 
check. I appreciate that you have raised it and you have stated 
it that way, but know that that too will be an area of ongoing 
inquiry for us here in the Committee.
    In my first round let me ask just a couple more Alaska-
specific, Tongass-specific questions. These are things that, of 
course, do not come as a surprise to you.
    Let me first address the Roadless Rule and access. As I 
mentioned in my opening and as we discussed yesterday amongst 
all those who came together for a public meeting when we were 
in Ketchikan, whether you are an air taxi operator, the 
electric utility, the school superintendent, or the guy who has 
the small sawmill, everybody is desperate for more access to 
the Tongass. And the state has submitted its petition on the 
Roadless Rule.
    The question for you this morning is what are you doing to 
help facilitate and to respond to that petition that the state 
has submitted and, really broader, what is the Forest Service 
doing to facilitate increased access to the Tongass?
    Ms. Christiansen. Thank you, Senator.
    We're well aware of the needs to address Southeast Alaska's 
needs and economy and access to the Tongass. We are working 
very closely with the State of Alaska to look at all of the 
options to address the roadless issues. A response is being 
submitted in the matter of a day from Secretary Purdue back to 
the State of Alaska. We want to look for success in how we can 
assure Southeast Alaska citizens have the needs met, as you 
identified, and we will support the state in numerous ways on 
those various options.
    The Chairman. I will repeat again what we have discussed, 
the entire Southeast economy is locked because of the Roadless 
Rule.
    The Tongass comprises 95 percent of southeastern Alaska. 
Whether it is your ability to be able to provide for clean, 
renewable power through additional hydro, building transmission 
lines, new activity in mining, or recreational permits, it is 
about access.
    When we think about the struggling economy, when we think 
about the out migration in this area, when you think about the 
high unemployment in this area. The urgency focused in this 
specific area is very, very keen and I need to know that your 
commitment and that of the Secretary is to work with the State 
of Alaska as we seek solutions.
    Let me move quickly here to the Tongass, the 2016 Tongass 
Land Management Plan. Again, we have been working with Forest 
Service staff as well as the Tongass collaborative members, and 
it is very clear that there have been errors that were 
identified in the 2016 plan. One involves a standard that 
restricts harvest on moderate vulnerability karst areas, and 
the other overestimates the timber supply that is expected to 
be available from both native corporation and state lands.
    I know that you are aware of both of these errors. The 
question to you this morning is how, recognizing that we have 
to address this, how we will be able to ensure that in dealing 
with the timber sale planning ability to meet the market 
demand, how we will comply with the Tongass Timber Reform Act, 
given the errors that we are dealing with?
    Ms. Christiansen. Yes, Senator, you're absolutely right. 
I'm well aware of the errors and, as you said, the 
collaborative has acknowledged those errors. So we are working 
now to put together the most effective method that we can get 
those fixes in an amendment while we look at other options for 
the, potentially adjusting the transition period when we get 
the----
    The Chairman. Given the new inventory.
    Ms. Christiansen. ----the inventory is completed at the end 
of this summer.
    We want to be the most expeditious and efficient in getting 
those fixes corrected. And I'd be glad to, certainly, keep you 
posted on that progress.
    The Chairman. Good.
    Well, we will be working with you as you get all that 
information.
    Let me go to Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Ms. Christiansen, the science program. Do you think that we 
are seeing dramatic shifts in how fire is behaving?
    Ms. Christiansen. Senator Cantwell, what I can tell you is 
we now don't refer to a fire season, we refer to the fire year. 
Certainly from the national level, we need to be ready 12 
months a year. So yes, we are seeing shifts and our scientists 
are documenting the change in our vegetation and, therefore, 
the associated behavior on the landscape as it results to many 
stressors, fire, insects and disease and others being just a 
couple of those stressors.
    Our scientific capability is very essential for us to be 
able to look out ahead and know what we're facing. And then on 
the back end of these catastrophic events, how we can best 
recover the landscape and the communities.
    Senator Cantwell. Thank you.
    On this issue of airtankers being ready versus the 48-hour 
proposal, how does that save us money because I look at this 
and I think it might be from an upfront look, it is valued to 
have a cheaper contract, but if they are not ready for 48 hours 
to serve us when we have an emergency, how is that saving us 
money?
    I think the Colville had something like $1 billion worth of 
timber that burned up in one of our two bad fire seasons. So we 
are talking about a lot of catastrophic damage that can be done 
and these assets seem to have been utilized in helping slow 
down the many, many, many more fire starts that we are seeing 
when an area is in that target zone which is what we saw for us 
for two years. This year, I don't know that we are going to be 
in that target zone again, but other people will be.
    How do you equate savings if, in fact, more land burns up 
because we don't have the immediate resource?
    Ms. Christiansen. Thank you for your questions and your 
concern.
    There's just two things I'd like to clarify. Airtankers are 
a very, very important tool, in the right place, to help retard 
the immediate advancement of fires, but they do not put the 
fires out without effective ground resources. In regards to the 
15 minutes (the exclusive-use contracting) and the 48 hours 
(the call-when-needed contracting), here's how our scientists 
are really helpful. We have great predictive services, but 
certainly as the different fire year evolves we have more 
precise information about the uptick in fire danger. So we will 
certainly activate those call-when-needed airtankers as we see 
less availability of our existing resources and more fire 
danger. So it's on us that we activate that surge capacity, 
those additional resources. And then, once they're activated, 
on a call-when-needed basis. They also would have an immediate 
response effect.
    So, our scientists----
    Senator Cantwell. Are you saying, for example, once that 
fire map is produced then you would be calling these guys every 
couple of days saying you are activated. Is that what would 
happen?
    Ms. Christiansen. Well, it's not necessarily dependent just 
on a static fire map. It would be the weather patterns, how 
much in demand we have resources across the nation in other 
places, what our needs are.
    So, there's hourly updates to the national needs that are 
evaluated in our fire center in Boise. We'll project out 2 
days, 5 days, 10 days, 2 weeks, 3 weeks and evaluate what 
resources are needed based on those projections.
    Senator Cantwell. But are you saying that, for example, the 
Okanagan was targeted again. You would say that a big storm was 
coming through, you would activate those assets? You would call 
them and say, you are on call for this region?
    Ms. Christiansen. If we didn't have other available 
exclusive-use aircraft, they were all being used and we saw 
they were going to be overused in those weeks to come, 
absolutely, we would.
    Senator Cantwell. So, my time is expired, Madam Chair, but 
I will look forward to discussing this more with you.
    Ms. Christiansen. Sure.
    Senator Cantwell. Thank you.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Madam Chair, and thank you to 
the witnesses for being here today.
    The last 20 years have been pretty rough on areas of 
Colorado forest. We have had millions of acres of national, 
state, and private forests infested by bark beetles and other 
diseases. Some people believe we have over a billion dead trees 
in the State of Colorado alone.
    We were lucky in 2017, one of the worst fire seasons we 
have seen in Colorado was not as bad as it was in other places 
because of the wet winter in Colorado. But 2018 is setting up 
to be a much different picture for Colorado's forests than 2017 
was in terms of fire. In fact, we have already had an early 
season fire on the front range that burned 43,000 acres.
    Based on the management reforms that we passed in the 
Omnibus as well as the fire borrowing fix, which will hopefully 
free up what were previously at risk of diversion resources, 
what is the Forest Service doing right now in states like 
Colorado to prepare for what could be a difficult 2018? And 
then I want to follow up on this call-when-needed contract 
issue.
    Ms. Christiansen. Thank you, Senator Gardner.
    We are, as a person from the Pacific Northwest says, not 
letting any moss grow under our feet and adding to our tool box 
these new additional authorities from the Omnibus.
    As I think you're aware, we're making some really good 
progress with the Good Neighbor Authority with the added 
additions of being able to conduct the important work of 
maintaining and doing some reconstruction of needed roads. Our 
state partners are going to be far more effective in helping us 
get more work done on the ground.
    We have 127 Good Neighbor agreements across the U.S. in 33 
states. It's really effective. And this road addition, to be 
able to maintain and reconstruct roads, is essential. So we can 
put that to work immediately.
    I'm working with our regional foresters to assess where we 
can really activate this 20-year stewardship agreement, 
especially in places with high fire risk and danger and where 
we don't have any real good infrastructure to process that 
woody biomass or that timber. The 20-year will give the private 
sector the opportunity to really invest because they will have 
a known supply. So we're targeting where we can use that new 
authority.
    We are 50 percent ahead in our timber that we have brought 
to market than we were this time last year. We are really 
putting a laser sharp focus on doing these preventative 
treatments and getting more product to the ground.
    Senator Gardner. If I could jump in real quick and just to 
follow up. Will you be seeking any additional forest health or 
fuel management reforms this year----
    Ms. Christiansen. We'd be glad to work----
    Senator Gardner. ----that you would like to see Congress 
authorize?
    Ms. Christiansen. We'd be glad to work with Congress if 
there is anything that will help us get more sustainable work 
done on the ground. We'd look forward to working with you.
    Senator Gardner. Okay, very good.
    This issue of the call-when-needed contracts, I mean, it 
is, I think, pretty obvious when you have a call-when-needed 
contract, if you are calling somebody two to five days out or 
utilizing an exclusive contract versus a call-when-needed 
contract, the costs vary dramatically.
    Last year, I believe, you had 20 exclusive-use, large 
airtanker contracts in place; you had three MAFF units, the 
Modular Air Fire Fighter units, and you had two large 
airtankers from Canada. In addition to those 20, you ended up 
with the three MAFFs, the two large airtankers from Canada, and 
this year you have 13 exclusive-use contracts in place for what 
looks to be a very difficult year in the Colorado River Basin, 
Colorado, and other states.
    There has been a reduction by about 65 percent in the term, 
in the numbers of contracts you are utilizing. It is going to 
add significant costs, I would think, if you are calling up 
people as you go into the summer. What is the rationale for 
that again?
    Ms. Christiansen. Senator, we really look hard and do our 
analysis on the right balance between these exclusive use which 
is for an extended period of time and then the call-when-
needed. We take this very seriously, and we will evaluate each 
year and adjust the balance of these contracts.
    These next generation aircraft are more expensive than the 
legacy aircraft we had operated for the last two decades, so we 
have to be fiscally prudent and responsible in finding that 
right balance.
    We are confident that we have the aircraft we need when we 
need it through the combination of the exclusive use, the call-
when-needed, the military MAFFs and then when we can call our 
partners down from Alaska and Canada.
    Senator Gardner. If I could, with no time left.
    Do you think you are providing industry with enough 
certainty, private industry, with enough certainty to replace 
some of the contracts in the past that were coming out of the 
Forest Service in terms of the airtankers that have been used 
since 2014, authorized by the Defense Authorization Act?
    Ms. Christiansen. Senator Gardner, we are doing everything 
we can to be a good partner with the industry and exercise our 
fiscal responsibility.
    Senator Gardner. Thank you, Madam Chair.
    Thank you.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Madam Chair.
    Madam Chair and Senator Cantwell, I am still trying to get 
my arms around the fact that this is the first time in seven 
years when I have not walked into this hearing room and said, 
we all, on this Committee, led by you two, and I see Senator 
Daines, Senator Gardner, Senator Heinrich, all of our 
colleagues, said we have got to fix this commonsense-defying 
practice known as fire borrowing. To be able to come in here 
and say we have gotten it done and our job now is to build on 
that accomplishment is in and of itself a remarkable event. We 
have folks at home who said, well Ron's just going to come and 
talk to us about this, sort of like, it is the longest running 
battle since the Trojan War. It will just go on and on. But we 
now have gotten it done. And colleagues, we are ready to go on 
and talk about how we are going to get back in the business of 
preventing forest fires, how we are going to promote forest 
health, how we are going to strengthen rural economies while we 
protect our treasures. I think that is a day and a moment well 
worth taking note of.
    I particularly want to thank your leadership, Madam Chair, 
and Senator Cantwell's leadership because there are a lot of 
folks in the West who never thought that this day was going to 
come.
    Now that we have liberated the Forest Service with respect 
to funding and you all can get back to prevention, how does the 
Forest Service position itself and will you be able to position 
yourself to have more certainty with respect to prevention so 
we can get more done in hazardous fuels reduction and thinning?
    Ms. Christiansen, we appreciate your professionalism. Those 
of us who have served on this Committee for a while have seen 
it in action. Tell us whether this does provide you the 
certainty and the ability now to accomplish things in hazardous 
fuels reduction and thinning that you could not do before.
    Ms. Christiansen. Senator Wyden, thank you very much.
    I'd like to say it's liberation with accountability, and 
that's what we have to show. And yes, this frees us up to get 
more work done in the targeted places where we can reduce the 
most risk, the highest risk, looking at the critical values 
that are at-risk. Of course, it's communities, it's watersheds, 
it's important timber values. We are using our important 
science to identify those priorities.
    With the new authorities you've immediately given us, as 
I've already stated, it will help us accelerate what we believe 
we've already laid some pretty good foundational pieces, Good 
Neighbor Authority, 20-year stewardship, these fire 
resiliencies, the categorical exclusions for fire resilience 
projects, working in a collaborative fashion. We are going to 
build on the collaboration that we have already established 
around this country and go further with shared stewardship.
    Senator Wyden. Let me close and build on a comment that the 
Chair, Senator Murkowski, made with respect to benchmarks, 
because when you enact a law that is just the beginning. I 
think a lot of the, sort of, theorizing about lawmaking is you 
write a law and then you move on. Well, once you pass the law 
that is just the beginning. Then, per your notion of 
accountability, you have to have a game plan from that point 
on.
    I want to build on what the Chair just talked about with 
respect to benchmarks and see if we can get a game plan, at 
least for my state and perhaps my colleagues in the West would 
like it as well. I think we need a game plan from you. A 
specific game plan in order to get at the hazardous fuels 
backlog in Oregon and around the West.
    As you noted, the fire season just goes on and on. We have 
fires sometimes in Oregon in the winter, and people say, hey, I 
thought these things came along in July and August.
    Could you, for our state and certainly I think it is 
appealing throughout the West because it is going to be a tough 
fire season, could you get to us within say, the next six 
weeks, send it to the Chair and the Ranking Minority Member, we 
would all look at it, an actual game plan for attacking the 
hazardous fuels backlog in the West?
    Ms. Christiansen. Senator, we'd be happy to work with you 
on that. We are setting ourselves up. We call it scenarial 
planning, so we can look at where we can get this hazardous 
fuels and sustain these rural economies and look at the 
critical watershed values.
    We're prepared to go to the State Foresters and the 
governors and have a conversation so that we can have some 
state-based specifics about how we manage the landscapes 
collectively. We're very happy and look forward to working with 
you on getting that.
    Senator Wyden. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Wyden. I appreciate your 
ask here because I do think that, again, this level of 
accountability is important, and I appreciate that you have 
volunteered its liberation with accountability.
    But I do think having an opportunity to know where you are, 
where the agency is, in this process, working with the states 
in the collaborative process and sharing that with us will be 
important. We will work together on this, again, so that we can 
have more follow on.
    I am going to excuse myself for a few minutes and go to an 
Appropriations hearing. I have asked Senator Barrasso to take 
the gavel, but we will turn now to Senator Daines.
    Senator Daines. Thank you, Madam Chair.
    Ms. Christiansen, welcome. Thank you for coming here today, 
and congratulations on your interim appointment as Chief of the 
Forest Service.
    This is first time the Forest Service Chief, albeit Acting, 
has appeared before us since the recent PBS News Hour 
Investigation revealed a history of problems at the Forest 
Service related to harassment, sexual misconduct, and 
retaliation of the agency, including at least two incidents in 
Montana. Reports of these abuses are horrific, and I hope for 
an update today on what the Forest Service is doing to address 
this issue.
    We have also since made some progress in the recent funding 
bill to enact a wildfire funding fix, as Senator Wyden just 
pointed out, and some, albeit limited, management reforms, but 
I am not sure we have quite liberated the Forest Service at 
this point based on what we passed.
    I will argue that we have won a small battle in, I think, a 
longer-term war that we face before maybe we have ultimate 
liberation of the Forest Service to get on with the business of 
doing what you do best. I think a lot more needs to be done to 
restore health to our national forests.
    I want to explore this idea of arbitration. In my state, 
especially, litigation from a handful of fringe groups, who are 
usually not part of the collaborative process, they are sitting 
on the sidelines waiting until the collaborative process 
finally gets to an end and then they come in and they litigate. 
They delay some great forest restoration projects, and they are 
really harming our local economies.
    I was up in Lincoln County a little over a week ago. It is 
just devastating what is going on in terms of the sickness of 
our forests, what we have and then we have a fire we can't even 
get in and do commonsense salvage work. That is why I think we 
need to take a look at arbitration as part of the solution.
    A question is does the Forest Service support an 
arbitration pilot, a pilot authority like the one proposed in a 
bill I have called the Protect Collaboration for Healthier 
Forests Act, to ensure swifter resolution of litigation and 
therefore, faster implementation of these projects?
    Ms. Christiansen. Thank you, Senator Daines.
    It is so that one out of every ten projects in the State of 
Montana are litigated, and in the spirit of learning and moving 
forward, we'd be happy to work with you on a pilot project 
evaluating arbitration.
    Senator Daines. Thank you.
    Recent legislation that was passed here in Congress 
reversed that Ninth Circuit Court of Appeals' Cottonwood 
decision. For some forest plans, I have to tell you, I was 
disappointed in that the very bottom of the ninth inning that 
legislation we had was bipartisan, co-sponsorship, frankly was 
deluded at the very end because the requirements for the Forest 
Service to consult with the Fish and Wildlife Service remains 
when, ``new information reveals that agency actions may affect 
species or habitat.'' This requirement creates more red tape 
and slows down management.
    The question is do you support my efforts, the efforts, to 
remove or modify the ``new information consultation 
requirement?''
    Ms. Christiansen. Yes, Senator, we do have similar 
concerns, and we'd be glad to work with you on that.
    Senator Daines. Thank you.
    I want to move into this issue of the sexual harassment in 
the Forest Service.
    Can the Forest Service provide my office with an update 
regarding this 30-day action plan that outlines initial steps 
the agency is taking to build a safe working environment?
    Ms. Christiansen. Absolutely. We'll come up any time and 
keep you updated on how serious we are taking this and what 
improvements that we are absolutely committed to make.
    Senator Daines. Thank you, I appreciate it. Thanks for your 
leadership in this area as well.
    Lastly, I applaud the agency's recent rulemaking to revise 
its NEPA procedures and share the goal of increasing the 
efficiency of environmental analysis. I am told your agency 
spends $365 million every year on complying with NEPA and other 
federal laws. This excessive red tape is unnecessary and, 
frankly, crippling to a more effective forest management.
    Could you discuss how creating NEPA process efficiencies 
whether through your rulemaking or through additional 
provisions in law or both could help the Forest Service get 
more work done on the ground?
    Ms. Christiansen. Yes, Senator Daines. We have a nationwide 
effort underway, as you have mentioned, to increase both the 
quantity and quality of our environmental assessments and our 
accomplishments.
    We are doing it through several factors, learning and 
innovating how we can streamline cleanup, some old outdated 
processes through regulations, through training, through quite 
frankly, checking our culture and our practices and many 
others, many other opportunities.
    We have benchmarked ourselves. We are, we will see a 10 
percent efficiency in 2018, a 20 percent--another 10 percent 
efficiency in 2019. And by 2020, 20 percent. So, we will have 
reduced that by at least 40 percent by the year 2020.
    Senator Daines. Great.
    I am out of time, but it is refreshing to see leadership 
that quantifies a goal and holds itself accountable----
    Ms. Christiansen. Thank you.
    Senator Daines. ----for the results. Thank you.
    Ms. Christiansen. Thank you.
    Senator Barrasso [presiding]. Thank you, Senator Daines.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Welcome, it is great to see you here.
    Ms. Christiansen. Thank you.
    Senator Cortez Masto. I look forward to working with you.
    Let me start with an issue that is of concern to many of us 
in Nevada, and that is the opening of oil and gas drilling in 
our Ruby Mountains. I know you are relatively new but I have a 
few questions and, if you cannot answer them, I would love some 
follow-up on it.
    I am concerned about the prospect of opening 54,000 acres 
of U.S. Forest land in Nevada's Ruby Mountains for oil and gas 
leasing. The Ruby Mountains are located in Elko County within 
the Humboldt-Toiyabe National Forest and are known for their 
rugged terrain and mule deer, bighorn sheep, and greater sage-
grouse habitat. Likewise, I am also concerned that expansive 
oil and gas drilling will threaten this pristine and sensitive 
area which welcomes thousands of annual visitors to utilize its 
public spaces for hunting, fishing, and outdoor recreation. The 
comment period closed yesterday, and I know that you have 
already heard from hundreds of local constituents, if not more.
    So the first question I have is, does the Forest Service 
believe the Ruby Mountains are suitable for oil and gas 
leasing?
    Ms. Christiansen. Thank you, Senator Cortez Masto.
    We certainly take our responsibilities of multiple-use 
management very seriously and for public engagement and for 
really hearing from the public about the process.
    I am aware of this issue. I know that we will be working 
with the BLM. They will make the final decision, but we have 
more to review. We will be doing an environmental review, and I 
can assure you through that environmental review process we 
will be including the public.
    Senator Cortez Masto. And so, a couple of things. How long 
is the environmental review process? How long will that take?
    Ms. Christiansen. Senator, I don't have that specific 
timeline.
    Senator Cortez Masto. Okay.
    Ms. Christiansen. I'd be glad to get back to you.
    Senator Cortez Masto. Can you ensure that numerous 
individuals, stakeholders, and businesses will have their 
voices counted during this review process?
    Ms. Christiansen. Absolutely.
    Senator Cortez Masto. Thank you. I appreciate that.
    The Forest Service's budget eliminates the Legacy Roads and 
Trails line item, and counties in Nevada will not have the 
funds to make these repairs if this is zeroed out. Why has the 
program been zeroed out and how can you address the needs of 
local communities from this funding?
    Ms. Christiansen. Senator, this budget request, as I said 
in my opening statement, really does have some tough choices 
and tradeoffs. We do understand the importance of these roads 
and trails to local communities, and we'd be glad to work with 
you through the process on this budget.
    Senator Cortez Masto. So, can I ask? Do you have enough 
resources and staff to manage the upkeep of these trails or are 
you going to be relying more on local resources which, quite 
frankly, are not enough?
    Ms. Christiansen. No, we will have to prioritize and we 
will not have enough resources for all 178 million miles of 
trails that we have on the National Forest System.
    Senator Cortez Masto. I think that is all of our concern. I 
would like to work with you as well.
    Ms. Christiansen. Certainly.
    Senator Cortez Masto. And then let me jump back to Senator 
Wyden's comments and what I have heard.
    As you well know, Nevada is just as concerned about the 
fire services, fire suppression, and management. We have had 
wildfires in Nevada that continue to cause damage. That is, 
unfortunately, the norm now.
    And as you well know, one of the MAFF systems is in Reno 
with our Air National Guard, the 152nd Airlift Wing.
    You stated in your comments that 3.4 million acres of 
Forest Service land is subject to the removal of hazardous 
fuels and stand treatments. Is that correct?
    Ms. Christiansen. What I stated is that is our goal for 
accomplishment. We will affect 3.4--we will treat 3.4 million 
acres in all of our activities in this 2019 Fiscal Year.
    Senator Cortez Masto. Have you identified those 3.4 million 
acres, where they are located geographically?
    Ms. Christiansen. We certainly have hazard maps and where 
we need to keep the supply for local infrastructure and mills, 
and our units do work planning two and three years out. So, we 
certainly have our prioritized list, yes.
    Senator Cortez Masto. And geographically are they located 
in the Western states, that 3.4 million acres? I guess my 
concern is I would like to see, like the Senator and everyone 
else, specifics.
    If you are talking about 3.4 million acres, you have 
obviously identified where those acres are going to be located 
across the country. If 80 percent of the land that you manage 
is in the Western states, that is where the fire services, I am 
assuming that is where that 3.4 million is going to be 
located--in the Western states, where the fires are occurring.
    Ms. Christiansen. Yes, Senator, it is spread out through 
all of our units, and we would be glad to get back to you. Of 
course, the majority of the lands are in the West, so that 
would be the majority of activity. But we can get back to you 
with more specifics.
    Senator Cortez Masto. Thank you.
    I know my time is running out. Thank you very much. I look 
forward to working with you.
    Ms. Christiansen. Thank you.
    Senator Barrasso. Thank you, Senator Cortez Masto.
    Senator Capito.
    Senator Capito. Thank you.
    Thank you very much for being here with us and we 
appreciate in West Virginia, Senator Manchin is here, we enjoy 
our national forest, that is for sure.
    I have noticed that we are hearing a recurring theme from 
our constituents that there is a lack of consistency in the 
application of the law, the agency regulations, and policy 
guidance, considering different areas of the country. We hear 
issues, for instance, the same issues we hear about the 
National Park Service, Fish and Wildlife, Bureau of Land 
Management and EPA's regional offices, which I know none of 
those you are over. But the Forest Service, I think, faces 
similar challenges. National forests apply federal statutes and 
agency regulations very differently from one jurisdiction to 
the other.
    Secretary Zinke has proposed a regional realignment for the 
agencies within the Department of the Interior. The Secretary 
has talked about staying in a common watershed would bring like 
decisions to like decisions. I realize that you are within 
USDA. Are you monitoring this effort that is going on with the 
other, sort of, realignments and do you have any perspectives 
on that in terms of the Forest Service?
    Ms. Christiansen. Thank you, Senator Capito.
    I think we are within USDA.
    Senator Capito. Right.
    Ms. Christiansen. We are very much a part of USDA.
    Senator Capito. Right.
    Ms. Christiansen. And the relationship that we have, 
particularly with the Department of the Interior, is absolutely 
very important and a commitment that we have ongoing 
coordination.
    I meet once a month with the leadership of my counterparts 
at the Bureau of Land Management, and I have an expectation 
that our regional foresters are doing the same. We have a long 
history of learning together and in doing community engagement 
together along with how we respond to wildland fire.
    Now, I know and this is what I tell my team all the time, 
we need to work out those differences and those 
inconsistencies----
    Senator Capito. Right.
    Ms. Christiansen. ----behind the scenes and not let our 
public feel that impact and the different effects on 
communities.
    Senator Capito. I think that is what we are hearing. I 
bring it up because in West Virginia I have heard, we have 
heard, from constituents who are frustrated by the constraints 
on sustainable timber harvesting in the Monongahela (Mon) 
Forest or you can go a little bit north of us in the 
Appalachia, same sort of----
    Ms. Christiansen. Yup.
    Senator Capito. ----very similar forestry makeup.
    In Pennsylvania, the Allegheny National Forest has a better 
balance and is outperforming the Mon Forest in timber sales and 
harvest despite being just half the size.
    So when you say you are encouraging more of that, is that 
the kind of thing where these two, the one in Pennsylvania and 
the Mon Forest, would be coordinating? How can that occur more 
readily in the Allegheny National Forest and not the Mon 
Forest? Because this is starting to accumulate. We are hearing 
this time and time again.
    Ms. Christiansen. Yeah, I really understand, Senator.
    The Monongahela is really stepping up. Now they, each of 
these forests, have a forest land management plan.
    Senator Capito. Right.
    Ms. Christiansen. That was with significant input from the 
local community and the local resources.
    Senator Capito. Right.
    Ms. Christiansen. So we both are responsive to the local 
needs but looking at the overall alignment of how we get our 
collective work done. So, in a specific case, the Monongahela 
is increasing their timber output significantly. They will more 
than double by the year 2020.
    I just met with Clyde Thompson, our Forest Supervisor, and 
his team and they are really trying to make sure that that 
increased activity as well as recreational activity has access 
to local, the local contractors. Some of these local 
contractors, as you know, don't have access to broadband 
internet and that we are being conscious that we are not just 
advertising these opportunities through the internet and other 
ways. I'm really proud of the way the team there is stepping up 
and trying to really listen and work with the local community.
    Senator Capito. Well, I appreciate that. That is certainly 
welcome, obviously, job creator and economic benefits from 
where you live.
    But now that you have brought up broadband, I am 
remembering in the back of my mind that we have a bill, I 
believe, that works with the Forest Service to be able to run 
broadband availability more readily through Forest Service and 
national forests. Do you have any insight into that?
    Ms. Christiansen. Senator, I know it's a priority, but I 
don't have, I'm not completely briefed on those details, but 
I'd be glad to get back to you.
    Senator Capito. I can honestly tell you, if you are worried 
about going to a town hall meeting and you are saying you are 
going to run a high-speed internet line through the national 
forest for the objective to get it to some of the more remote 
homeowners, I do not think you will have much pushback.
    Ms. Christiansen. Good.
    Senator Capito. So I would encourage that.
    Certainly, in the West it has to have a huge impact, but 
even in a state like ours, we have low connectivity but we 
really need to use every part of our land to be able to get 
that connectivity for economic, agriculture and, now, 
timbering.
    Thank you.
    Ms. Christiansen. Thank you.
    The Chairman [presiding]. Senator Heinrich.
    Senator Heinrich. Thank you.
    Ms. Christiansen, it is already an active fire season in 
New Mexico, and I should start by just saying a special thank 
you to all the men and women who are working to keep our 
communities safe and especially the teams that recently 
responded to manage the Blue Water and Diener Canyon fires, 
outside of Grants in my old backyard. What is the fire season 
outlook for the Southwest this year?
    Ms. Christiansen. I'm sorry.
    Senator Heinrich. What is the fire season outlook for the 
Southwest as a whole this year?
    Ms. Christiansen. Yes, fire season outlook is significant 
for the Southwest, as you know. The fire year starts in the 
South and the Southwest with the extended drought and the 
weather patterns we don't see the monsoons coming in soon. So, 
we have added some additional resources to be able to be fully 
prepared for the response in the Southwest.
    Senator Heinrich. You have heard a lot about fixing the 
fire borrowing problem, but that does not kick in this year. Do 
you expect the funding for the fire program provided in the 
FY'18 spending bill will cover this year's costs or do you 
expect to have to borrow for other programs before the year 
ends?
    Ms. Christiansen. Yes, Senator, you're absolutely right.
    Senator Heinrich. Sort of this transition year before the 
'19 spending kicks in, so.
    Ms. Christiansen. Absolutely.
    For '18 we really appreciate the additional $500 million 
that was added to the suppression account. That puts us at $1.6 
billion. Our scientists' projections are $1.9 million, the 
average likelihood for this season. So there is a likelihood we 
will have to borrow.
    Senator Heinrich. The Collaborative Forest Landscape 
Restoration Program provides critical funds to, really across 
the nation, support landscape-scale, collaboratively developed 
forest restoration projects.
    Now we have a couple of those active in New Mexico on the 
Jemez Mountains and in the Zuni Mountains where, I just 
mentioned, a couple of fires are occurring. Both projects are 
helping to reduce the risk of catastrophic wildfire. They are 
restoring forests that need it, they are providing good paying 
jobs in communities that need that economic opportunity and yet 
the budget eliminates all funding for these projects. Why is 
the Forest Service gutting a program that is not only so 
important for rural jobs and forest health but is actually 
working?
    Ms. Christiansen. Yes, Senator, we are very pleased with 
the outcomes that the Collaborative Forest Landscape 
Restoration Program has afforded us. It's been great learning. 
It's brought the real foundation of true collaboration and 
shared stewardship in these communities.
    This was a, quite frankly, was seen as a duplicative 
effort, and we will not be abandoning those projects 
wholeheartedly. They will be funded from all the other funds, 
the hazardous fuels, the vegetation funds. They will compete 
with all the rest of the important work that we do have.
    Senator Heinrich. As you know, if you lose one of these 
small operations, even if there is a 6-month delay because you 
are trying to move from one account to another account, you can 
lose the entire capacity to be able to do that work in those 
areas. Do you have a plan in place to make sure that that does 
not happen?
    Ms. Christiansen. We certainly agree and, as I said, we 
will make sure to not abandon the important foundational pieces 
we've laid out, and we'd be glad to work with you as the 
appropriation process plays forward.
    Senator Heinrich. The other place that there is absolutely 
no funding is in the Forest Legacy Program which is incredibly 
important for privately-owned forest lands and placing 
conservation easements on those lands.
    In New Mexico we have a project called the Brazos Cliff 
project, ``cliffs,'' plural, which would protect six miles of 
the Rio Brazos, more than four miles of tributary creeks, 
riparian and wetland habitat which I can, probably do not need 
to tell you, is not common in New Mexico. The property provides 
abundant water to the Rio Chama which in turn waters farms 
downstream and cities in the Rio Grande Valley. Why on Earth 
would we zero out the Forest Legacy program?
    Ms. Christiansen. Senator Heinrich, when I was State 
Forester of Arizona we had the first Forest Legacy project on a 
very valuable desert riparian area. I know how unique and 
important those are. So I really do hear you. These are 
important landscapes. We like to be able to help leverage these 
important values. This budget request is a request of very 
tough choices and tradeoffs and focusing on the national 
forest.
    The Chairman. Thank you, Senator Heinrich.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman.
    Ms. Christiansen, I am glad to hear today of a couple 
questions. You really have a wealth of knowledge to bring to 
this position, not only about how the Forest Service has 
historically approached forest management but also about what 
Western states need in order to effectively manage forest 
resources. So I am grateful that you are here.
    Wyoming's forests present a wide variety of management 
challenges, as you know. The Shoshone National Forest is in 
Region Two. It abuts the Bridger-Teton National Forest in 
Region Four. The Shoshone has experienced massive die offs 
following mountain pine beetles, spruce beetle, white bark pine 
activity while the Bighorn remains relatively untouched. The 
Thunder Basin National Grasslands has a complex system of 
multiple uses and experiences its own challenges when trying to 
address resource damage from prairie dogs. For these reasons 
and more I am really glad to hear you say that you understand 
the need to focus the budget on stewardship of natural 
resources, including delivery of forest products and services.
    I would like to echo what the Chairman said earlier about 
the forestry provisions in the Omnibus. They fell far short of 
my expectations, but there is reason for hope. The agency must 
use these funds effectively to make a real difference to 
prevent future fire borrowing and must be accountable for these 
actions to the Committee and to our forest communities, and I 
believe you will be.
    With your background I know you understand the need to work 
cohesively across jurisdictional boundaries. Boundaries that 
are, that really have no respect, are not respected by fire, by 
invasive species, by wildlife. They are just, kind of, lines 
drawn.
    In your testimony, the written testimony, you appropriately 
recognize the need to work more efficiently within the 
parameters of the smaller budget request. This means the agency 
must have good working relationships with states, counties, and 
tribes when determining the best course of action at the onset 
of fire.
    I want to echo what Senator Capito said about coordinated 
efforts. She mentioned that earlier.
    And then this whole concept also applies, in my opinion, to 
interagency activities. So Wyoming is nearly unique. I know my 
friend, Senator Risch from Idaho, he knows exactly what I am 
talking about because Idaho, just like Wyoming, split into two 
Forest Service regions. Although they share a boundary, the 
Shoshone in Region Two, the Bridger-Teton in Region Four, there 
have been many cases where the regions have applied agency 
policy or guidelines inconsistently on two adjacent properties.
    Understanding the need to be flexible to address the local 
resource needs, I would just ask how you are working to promote 
consistently, in addition to what you said to Senator Capito, 
across regions, to prevent future problems?
    Ms. Christiansen. Thank you, Senator Barrasso.
    I really agree with you and I have to say I was a partner 
with the Forest Service for 30 years, so I have literally been 
on both sides and I do understand.
    You know, one immediate way that and these reforms we're 
undertaking some of our major bodies of work, I call it spring 
cleaning. We are really looking at the processes that we need 
to get us the results we need and the outcomes we need for both 
quality and quantity, whether it's our efforts on modernizing 
forest practices or it's the environmental assessment in 
decision-making or it's improving our special uses. This 
provides us a way to get a standardization. And so, we're 
spring cleaning. We clean out different things in our different 
closets, if you will.
    So I think we're going to uncover more of these 
inconsistencies across our boundary, and it's my expectation to 
work with our leaders and hold them accountable that we have 
more alignment.
    Senator Barrasso. Great. Well, I appreciate that answer.
    In Wyoming, like in Arizona, grazing is an important tool 
for our national forests. Not only does the grazing program 
provide for important hazardous fuels reduction and invasive 
species control, permittees, I believe, make significant 
investments in improvements to their allotments which benefit 
the agency and the land resource overall.
    One of the challenges, especially in Western Wyoming, is 
finding alternative allotments when fire or other situations 
arise. Unoccupied allotments, but if the NEPA is not completed, 
the allotments remain unavailable.
    In the proposed budget both the grazing program and the 
land management planning program would see decreases for the 
2018 level.
    Can you talk a little bit about how you anticipate the 
grazing program could remain basically operable and how the 
agency can ensure important NEPA analysis is up to date?
    Ms. Christiansen. Senator, I'll be quite frank. We do have 
concerns about being able to keep up with all of the needs of 
grazing. But we will, I will assure you we will prioritize and 
with our efficiencies gained in our NEPA environmental analysis 
and decision-making, that we can anticipate the needs, 
particularly if fire runs through an area and that we have some 
alternative allotments available. It will not be easy, but 
we're going to stay focused and we're going to stay 
prioritized.
    Senator Barrasso. Thank you.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman.
    Hello, Ms. Christiansen.
    Ms. Christiansen. Hi.
    Senator Manchin. How are you? Congratulations.
    Ms. Christiansen. Thank you.
    Senator Manchin. The increasing market share of the natural 
gas in our electricity mix has translated into great need for 
expanding energy infrastructure in the United States, 
particularly our pipelines, and they are under, as you can see, 
under concern.
    Natural gas pipelines are the safest and most efficient way 
to transport natural gas to the market. I know there are a lot 
of concerns--where we hear from a lot of folks on both sides of 
the pipeline issues, and I understand the people that have 
concerns about pipelines coming through their property. But the 
fact of the matter is we are sitting on a wealth of natural gas 
resources in West Virginia, Ohio, and Pennsylvania with all the 
fracking that has brought us so much energy, and we can't get 
it to the customers in the Northeast. In fact, just a few 
months ago, in January, a tanker carrying liquified natural gas 
from Russia's Arctic arrived in Boston. It seems to me that it 
is not too responsible nor in concert with landowners and the 
conservation of public lands. These pipelines are helping 
secure our nation's energy security. I would much rather be 
selling gas to Boston than have Russia bring it in.
    As we continue to see the onsite demonstrations against 
pipelines, I want to be sure that when it comes to pipelines 
across land that you all manage there is a good balance to 
ensure the safety and the environment and the progress that is 
needed.
    Have you all developed or considered developing guidelines 
or guidances for local land managers facing pipeline protest?
    Ms. Christiansen. Senator Manchin, yes, we will----
    Senator Manchin. Maybe I can help you a little bit on this.
    I have been told that basically if the pipelines are done 
and done properly, and a lot are in very forested areas. We 
live in the third most forested state here in the nation. You 
can do that and create habitat for the wildlife by clearing, 
but what's more if you plant foods to sustain the wildlife, it 
is much better. And right now, we don't have cleared spaces for 
that, so pipeline installation has to be done under some type 
of management plan. And you all would be best to do that.
    Ms. Christiansen. Yes, there's been thorough planning and 
environmental reviews for pipelines crossing, you know, 
crossing multiple ownerships.
    Senator Manchin. Sure.
    Ms. Christiansen. But certainly, on the national forests. 
We tried to be very thorough and balanced in our decision-
making on authorizing the crossing of those pipelines.
    Senator Manchin. Are you sharing that with the private 
sector so they are using best practices that you all have 
adopted?
    Ms. Christiansen. Absolutely.
    Senator Manchin. If it is good for the United States forest 
management, then it should be something that, basically, the 
private sector should be able to benefit from.
    Ms. Christiansen. Absolutely, Senator.
    Senator Manchin. Okay.
    The other thing I have is the Forest Service previously 
worked with West Virginia's Division of Forestry to help 
achieve the state goals for enhanced forest health and habitat 
conservation under the Good Neighbor Authority authorized in a 
2014 Farm bill. Specifically, the Gypsy Moth Working Group, the 
Hemlock Conservation Group and the Invasive Species Working 
Group are working with the Monongahela National Forest as well 
as other programs addressing weed and pest management, the Fire 
Learning Network and High-Elevation Restoration. West Virginia 
has benefited from these successful federal/state efforts such 
as the Forest Stewardship program and the Forest Health 
Management programs which aim to protect forest health in 
states especially on our private forest areas. We have a lot of 
that in West Virginia, as you know.
    I am concerned that the budget may reverse some of the 
progress our forests have made. You all have a pretty 
substantial budget cut. Do you believe that under the Fiscal 
Year 2019 proposed budget, the Forest Service will have the 
bandwidth to be able to continue these Good Neighbor practices? 
How much of a debt is this going to take you into?
    Ms. Christiansen. Yeah.
    Senator Manchin. I think your cut, I was looking at your 
cuts, were pretty substantial here, seven percent, $341 
million.
    Ms. Christiansen. Yes, they are substantial, Senator.
    I do want to acknowledge the benefit and the high value of 
leveraging working across boundaries with our state forestry 
agencies and in achieving successful outcomes for the whole 
landscape because even on private lands there are public 
benefits that flow from private lands.
    Senator Manchin. Have you been able to push back on the 
Administration and say, you can't cut me this deep? I can't do 
my job.
    Ms. Christiansen. Senator, we have prioritized what we can 
do within these constrained----
    Senator Manchin. There are a lot of us that will have 
gotten----
    Ms. Christiansen. Yes.
    So our priority is on the national forest, but I look 
forward to working with you about----
    Senator Manchin. Sure.
    Ms. Christiansen. ----additional priorities this Committee 
has.
    Senator Manchin. Thank you so much, I appreciate you.
    The Chairman. Thank you, Senator Manchin.
    Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman.
    Thanks to our witnesses for being here. We appreciate it, 
and I look forward to working with you.
    My first question relates to grazing. Have you been out to 
our grasslands in North Dakota? National grasslands?
    Ms. Christiansen. Yes, sir, I have.
    Senator Hoeven. Good.
    Ms. Christiansen. Once.
    Senator Hoeven. Well, then you are invited to come back 
again.
    Ms. Christiansen. Thank you.
    Senator Hoeven. You will love meeting with our ranchers.
    Ms. Christiansen. Yes.
    Senator Hoeven. And we have great meetings. They like to 
see you and talk to you and give you great input. There is 
nothing like being there with them, not only seeing the 
grasslands, but hearing from them. And believe me, they show up 
and they are great. They are very courteous, and they give you 
great input.
    Ms. Christiansen. Great.
    Senator Hoeven. But they really tell you what is going on, 
on the ground, so it is valuable. But we have a number of 
grazing associations out there, and we have had a longstanding 
partnership with the Forest Service.
    We are concerned the budget that was submitted proposes to 
cut the grazing management fee for 2019. Will you continue to 
uphold the partnership that we have between our grazing 
associations and the Forest Service and our ranchers?
    Ms. Christiansen. Yes, Senator, absolutely. Our 
relationship with the grazing association is essential for the 
success of the Forest Service and for the grazers.
    I know we're working on a standard permit that will 
hopefully have a couple really good outcomes, be more efficient 
on how we can get more done and provide more certainty and 
assurance for the grazing associations.
    Senator Hoeven. Yes, and I would really encourage you to 
come out and meet with the grazing associations and ranchers 
that want to come in. We will set up a nice roundtable, give 
you real good input as part of that process.
    Ms. Christiansen. I'd really appreciate that.
    Senator Hoeven. People find it very valuable.
    We have section lines, of course, in our state and a 
section line law that keeps those open to public access. 
Longstanding because we are an agrarian state, you know, and it 
has just been something that is always there. It goes back to 
our constitution. We need some help on that because there is 
concern out there now with some of those section lines being 
closed down and restricting access. So I would ask, are you 
willing to work with us on that on our section line law and 
make sure that we continue to have public access?
    Ms. Christiansen. Absolutely, Senator.
    I am aware that no grazing permittees or ranchers have not 
been allowed motorized access to all of their allotments.
    Senator Hoeven. Well, we truly have multiple use.
    Ms. Christiansen. Yeah.
    Senator Hoeven. I mean, we have not only farming and 
ranching, obviously ranching, on the grasslands, but we also 
have oil and gas and energy development, but we have both 
traditional and renewable energy. We are now the second largest 
oil-producing state behind only Texas. There is a lot of 
activity out there. There is a lot of energy development, 
renewable energy as well, and hunting and fishing and sportsmen 
and all those kinds of things.
    Ms. Christiansen. Sure.
    Senator Hoeven. So it really is multiple use, but we need 
to have that access.
    Again, that is another thing that you coming out to see 
would be helpful and we do have an active effort now on the 
section lines that we need your help.
    Ms. Christiansen. Good, I'd be glad to.
    Senator Hoeven. That is wonderful. Thank you very much.
    Wildfires are another area that require coordination. Of 
course, in our case it is grasslands rather than forests, but 
we really need coordination any time there is a controlled burn 
or anything like that. Again, can you, kind of, tell me how you 
approach the issue of working with the landowners on that issue 
of wildfires and controlled burns and so forth?
    Ms. Christiansen. Senator, it's really important to me. 
Again, I was previously 30 years on the state side of the 
boundary that whatever the jurisdiction that we work well 
before a fire, whether it's a prescribed fire or a wildfire, to 
know what our strategies, tactics and priorities and that we 
keep each agency well informed, inclusive of the committees--of 
the communities. And then, during the fire we have far more 
expectations of each other and coordination. And then, 
certainly, after fire, we can't forget the restoration and the 
needs of the communities, the watersheds that we need to work 
collectively across boundaries on.
    Senator Hoeven. Yes, that consultation on the front end is 
really important, again, for those producers who are on the 
ground. They know what is going on in terms of management and 
not having an unintended consequence or outcome.
    Ms. Christiansen. You bet.
    Senator Hoeven. That front end coordination is really 
important.
    Thank you so much.
    Ms. Christiansen. Thank you.
    The Chairman. Thank you, Senator Hoeven.
    Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    As we go through the testimony of so many of our programs 
and departments, it is very clear that the President's Fiscal 
Year '18 budget as well as Fiscal Year '19 budget really 
reflects a lower priority, much, much lower priorities for all 
domestic programs as opposed to the Department of Defense 
(DoD), which I have no problem in understanding that DoD 
requires funding. But to sit here, hearing after hearing, to be 
told that you all have to make very tough choices on the 
domestic side, it just reflects, in my view, the misplaced 
priorities of this Administration because the domestic spending 
is just as much a part of national security as the DoD side.
    Having said that, Ms. Christiansen, as you may know the 
Governor of Hawaii has recently made disaster declarations for 
both the County of Kauai and the City and County of Honolulu 
following rain events that have resulted in severe flooding and 
landslides to the point where people were without food and 
water.
    If Secretary Purdue were to make a disaster declaration for 
our impacted counties, what resources would the Forest Service 
be able to provide? Hawaii does not have national forest land, 
so does the Forest Service have the authority to provide 
resources to our state and local forests? And if not, what 
authorities would be required to do so?
    Ms. Christiansen. Thank you, Senator Hirono.
    We certainly understand the needs and the resiliency of an 
island community such as Hawaii. We have numerous resources at 
the Forest Service to assist and support communities.
    Our scientific knowledge on watershed resiliency, community 
resiliency under threat of wildfire, insects and disease is 
significant. As you know, we have the Institute for Pacific 
Island Forestry in Hawaii and the Hawaii experimental forest 
that is working on several of these issues proactively.
    And then, on the recovery side, for the actual support 
during an event it would need to be a Presidential declaration.
    Senator Hirono. That I understand.
    Ms. Christiansen. And then, our expertise around incident 
management should/could certainly be evoked.
    Senator Hirono. I like the fact that there is an Institute 
of Pacific Island Forestry so that you can engage in some 
proactive kinds of research. Is that program going to be cut in 
the Fiscal Year '19 budget, Presidential budget?
    Ms. Christiansen. The '19 proposed budget does have some 
cuts to our greater research and development. So we will 
prioritize where those cuts are, but I can assure you we will 
not pull out of Hawaii.
    Senator Hirono. Well, it is a matter of degree. So thank 
you.
    You have been asked by some of my other colleagues about 
your response to the Inspector General's interim draft report 
regarding Forest Service initiatives to address workplace 
misconduct issued this past February. And you have said today, 
that you would be happy to get back to us as to how you are 
doing, but are there any specific steps that have already been 
taken to address the misconduct issue at the Forest Service?
    Ms. Christiansen. Yes, Senator, there's many steps. I'll 
give you the high level.
    First of all, we have been putting many things in place for 
the last, in earnest, over the last two and a half years. We've 
put a harassment call center so to take away any perception of 
retaliation. We want folks to report, and we put on additional 
resources to follow up on those investigations.
    We've put--we've issued a very comprehensive update of the 
anti-harassment policy. In addition, what we've done of late is 
to add to that in what we are calling an action plan, ``Stand 
Up for Each Other.'' This--one of the things out of the OIG 
report is there's a perception between agency investigators 
that follow up on harassment and contract investigators, that 
there's a perception potentially of bias.
    Senator Hirono. My time is running out.
    You have put in place certain things in hopes that will 
result in more people coming forward because the IG report 
indicates that a very large percentage of your people have 
experienced harassment.
    I would be interested to know what kind of metrics you will 
put in place to decide or to determine whether these steps are 
working? With the last second, regarding the state and private 
forestry budget which is being cut by almost 50 percent, states 
like Hawaii, for example, get about $5 million from this 
program and the money for this program comes from other funds 
like the Forest Legacy Program which is being zeroed out. And 
you said that you have to make some tough decisions and that 
you will, through that Forest Legacy Program, concentrate on 
national forests, of which Hawaii has none.
    I just want to point out to you that if you are going to be 
focusing on national forests, it leaves Hawaii, as well as ten 
other states that have no national forests, kind of, out in the 
cold. I would want to work with you as to how to ameliorate 
those kinds of dramatic cuts to these programs.
    Ms. Christiansen. I understand your concern, and I'd be 
happy to work with you through the process.
    Senator Hirono. Thank you.
    The Chairman. Thank you, Senator Hirono.
    Let me ask a few more questions here, if I may.
    Speaking to recreation and some of the concerns that I 
raised earlier about the permitting issues in both the Tongass 
and the Chugach.
    As you recognized, we were able to include $2 million in 
additional funding for the recreation, the heritage and 
wilderness line item. There is also an additional $1.5 million 
in land ownership and access management to address the 
permitting, specifically.
    So we have worked on the funding side. It is good, but now 
we need to, kind of, break this loose. The effective moratorium 
that I referenced earlier in the Chugach has been lifted, but 
we still have a real issue with regards to access for 
recreational activities in the Chugach.
    Seward and Cordova, both of them would like to expand their 
tourism season to include some winter activities because right 
now they are very limited, but the opportunity to do heli-
skiing would be a great opportunity for, again, some of these 
smaller operators. The current leadership does not want to 
consider any new heli-ski permits until the land management 
revision plan is completed which is still a few years away. 
That is kind of tough for these small operators to be told, 
well, you know, wait until we get this plan complete.
    I guess the question to you is why is the Forest Service 
seemingly dragging its feet when it comes to permitting for our 
outfitters and guides in the Chugach given that, again, we have 
put in place some resources to provide for additional 
permitting? What I need, Ms. Christiansen, is your commitment 
to initiate a fair permitting process there in the Chugach and 
in the Tongass for our recreational permits.
    Ms. Christiansen. Yes, I really do understand, Senator, and 
you have my commitment.
    It is true that our process for permitting was cumbersome 
and outdated, and we have put some real focused efforts on 
improving our special use permits.
    We have 77,000 special use permits across the system with a 
demand for many more. That doesn't excuse us from not being 
responsive to the public and to the needs of the local economy. 
I can assure you we have caught up on the backlog and thank you 
for your help on the Chugach, in particular, and they have 
really been an early adopter of trying out these new processes.
    It is also true that we need to have our zoning, if you 
will, of the forest land, the forest management plan. And the 
Chugach is soon to release their draft, a forest management 
plan.
    So, we see those two coming together very soon, but I will 
work with my leaders in the field to ensure that we are as 
responsive as we can be and we keep pressing on these 
improvements to be responsive.
    The Chairman. Well, I appreciate your commitment.
    You know, the heli-skiing operations that we are talking 
about in the Chugach, again, but also the two small operators 
down in Southeast, down in the Tongass area.
    As you know, we have significant tourist visitorship. We 
saw over a million tourists last summer. We expect to see more 
this summer. At the same time that we are seeing a rise in 
tourism, we are seeing a reduction in the number of permits 
that are being issued to our air taxi operators--the number of 
permitted landings that they can do in the Misty Fjords and for 
bear viewing at Trader Cove. What is happening is we are seeing 
a reduction in the number of permits that are issued and more 
of the tourism operators are being pushed into the same areas. 
So what happens is you have congestion.
    Just think about this scenario. The cruise ship comes in at 
eight o'clock, nine o'clock, in the morning. They have six 
hours, eight hours in port, let's say. So you have these air 
taxi operators, these small float planes that have a very, 
very, very narrow window of time within which to take their 
passengers, these tourists, for this extraordinary opportunity 
and do it safely because we have to have it done safely. What 
we are seeing is more and more are pushed to the same area 
which, again, when you are a small float plane flying around 
and not every day is a perfect sunshine day, we do not want to 
see congestion that could result in an accident.
    I need your folks to take a very, very critical look at 
both the Tongass and the Chugach to evaluate additional areas 
that can be made available for our tourism operators and see if 
more landings, more user days, can be permitted.
    My first round of questioning to you was directed on how we 
are going to be able to revitalize, and I even hesitate to use 
that word, but to breathe some life into a struggling timber 
economy in Southeast.
    I have those that will oppose me at every turn if I even 
suggest harvesting one tree on the Tongass and they always say, 
go to the tourism. That is your industry. That is your 
industry.
    Well, the industry is still within the Tongass National 
Forest and you all, as an agency, still control what everybody 
does there. So whether it is cutting a tree or allowing us to 
have a flight-seeing opportunity in some extraordinary areas, 
we are still coming to you, hat in hand, saying allow us to 
have this economy, allow us to have some kind of an economy.
    I need you to work with us on the timber management side in 
a way that, again, allows for a small timber harvest. And when 
I say small, I recognize that we are the largest national 
forest in the country and we cannot even get what some would 
describe as an infinitesimal amount of harvest out of the 
Tongass right now. And then when we go on the other side to 
look at recreation, again, we have limitations that most would 
say just does not make sense. So I am asking for your help with 
that.
    Ms. Christiansen. Senator, as you know, I'm getting up to 
speed and I'm learning a lot, thanks to your help, about the 
issues in Alaska.
    I do know and feel the needs of Southeast Alaska, in 
particular, and you have my commitment that we will look at the 
balance of all multiple uses and that there's many sectors, 
both the economy and the culture and the way of life in Alaska, 
particularly Southeast and that the national forests there do 
have a great impact and opportunity. And I want to make it an 
opportunity where we can.
    The Chairman. Well, thank you.
    And you mention the culture. Many, many in Southeast are 
native people--Tlingit, Tsimshian, Haida, other Alaska natives 
who may have served in Vietnam at the same time that other 
Alaska natives around the state were able to make selections 
under the Alaska Native Claims Settlement Act (ANCSA). They 
were unable to submit applications since they were serving our 
country when ANCSA was enacted and we have been trying for 
years, for decades now, to finally see an equitable 
distribution to those Vietnam veterans. Obviously, a critically 
important issue for them.
    Another measure that we have been working, as it relates to 
our native people, directs the Forest Service to work with 
Department of the Interior to study a potential land exchange 
there in the Chugach to allow Chugach Alaska Corporation to 
exchange their lands that were contaminated from the Exxon 
Valdez oil spill.
    These are just two of the issues that are very, very 
important to Alaska natives, whether down in the Tongass area 
or up in the Chugach. I would like your commitment to work with 
me on these issues and others that are part of our ANCSA 
Improvement Act.
    Ms. Christiansen. Senator, you have my commitment, 
absolutely.
    The Chairman. Good, good, thank you for that.
    My last question for you, and this is very parochial here, 
but this also relates to some land in, down in Southeast. 
Forest Service has been working on acquiring lands at Cube Cove 
on Admiralty Island from Shee Atika Corporation there near 
Sitka and then we have some split estate ownership issues.
    Funding was included in the budget deal to acquire the next 
few tracts so the land acquisition is almost complete. This has 
been one of these torturous, it just seems like it's taking 
forever to resolve this, but Forest Service is only acquiring 
the surface rights knowing that the surface estate could be 
impacted if minerals are discovered because the regional corps 
have the rights to development under both ANCSA and ANILCA.
    I know that your staff has been working to find a solution 
to gain the subsurface to these lands. I do not know if you are 
up to speed on this, whether you have any status update as to 
where we are in finally resolving this?
    Ms. Christiansen. Yes, I am aware.
    I know that we are working with Sealaska on the subsurface 
issue and opportunity. There are some differences about the 
potential evaluation of those subsurfaces. And Sealaska, after 
a meeting our folks had in February, they informed us that they 
were going to hire an outside consultant to evaluate the, what 
might be entailed in those subsurface minerals.
    The Chairman. So, not necessarily an appraisal?
    Ms. Christiansen. No.
    The Chairman. But an assessment of the resource?
    Ms. Christiansen. That's how I understand it, Senator.
    And this was something that they wanted to do. So we are, 
of course, anxiously awaiting to get back with them after that 
consultation.
    The Chairman. Okay, okay.
    I thought that was going to be my last question, but let me 
throw one more out at you and this relates to improving the 
agency's NEPA processing.
    Ms. Christiansen. Yes.
    The Chairman. The Forest Service has launched this advanced 
notice of proposed rulemaking on NEPA, working on ways to make 
it more efficient and comply with environmental laws.
    I have heard some concerns about how the effort is being 
conducted. I am just wondering what the status of this review 
is, where next steps are taking you as you are dealing with 
this NEPA review effort. We have also heard that there is 
possibly non-federal entities that have been holding sessions 
related to the NEPA review effort. If you can just give me the 
status on where we are with this.
    Ms. Christiansen. Yeah, Senator. We're trying to be well-
informed about the issues and the opportunities around the 
whole process. So we did hold ten roundtables across the U.S. 
and one technical session. We partnered with the National 
Forest Foundation to help us with those roundtables. They did 
bring in a couple partners to help with the facilitation. We 
were very balanced in who were at and attended and had input 
into those roundtables. I'd be glad to talk to you anymore 
about concerns that you've heard.
    The Chairman. That might be worth a conversation with our 
staffs just so that we have a little bit of the background----
    Ms. Christiansen. Sure.
    The Chairman. ----to respond to some of the concerns that 
have been raised with us.
    Ms. Christiansen. I'd be glad to.
    The Chairman. Okay, good, good, good.
    We are approaching the noon hour. I appreciate you being 
here this morning, being as responsive as you have been to the 
wide variety of questions that have been posed by members.
    Obviously, this is an important agency, not only for the 
Committee, but really, it is an important agency for the 
management of so much of our land across the country.
    As we deal with some of these challenges, whether it be 
fire, whether it be timber harvest, whether it be recreation, 
grazing, know that we, as a Committee, stand ready to work with 
you and your team.
    You have taken on a lot in just six weeks and I think your 
background, actually being on the ground, in the forests, 
working it, gives you a good perspective on the needs of the 
agency, but I also recognize that you are dealing with a big 
bureaucracy here.
    We wish you well in that, and I appreciate your leadership. 
Thank you.
    We stand adjourned.
    [Whereupon, at 11:49 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
